Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
January 19, 2021

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Howard Griffith
2903 James Street
#1R
Syracuse, NY 13206

Re: Howard Griffith
v. New York
No. 20-6395

Dear Mr. Griffith:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

4

APPENDIX
Howard Griffith v New York, 20-6395: "Petition for Writ of Certiorari denied":
January 19, 2021

iii

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
January 19, 2021

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Howard Griffith
2903 James Street
#1R
Syracuse, NY 13206
Re: Howard Griffith
v. New York
No. 20-6395
Dear Mr. Griffith:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
March 2, 2021

Howard Griffith
2903 James Street, #1R
Syracuse, NY 13206

Re_celived
Marck ) a011
I-1. G,

RE: Howard Griffith v. New York
No: 20-6395
Dear Mr. Griffith:

The petition for rehearing in the above-entitled case was postmarked February 4, 2021
and received February 9, 2021 and is herewith returned for failure to comply with Rule
44 of the Rules of this Court. The petition must briefly and distinctly state its grounds
and must be accompanied by a certificate stating that the grounds are limited to
intervening circumstances of substantial or controlling effect or to other substantial
grounds not previously presented.
You must also certify that the petition for rehearing is presented in good faith and not
for delay.
Please correct and resubmit as soon as possible. Unless the petition is submitted to
this Office in corrected form within 15 days of the date of this letter, the petition will not
be filed. Rule 44.6.

Sincerely,
Scott S. Harris, Clerk,
By:
Clayton R. Higgins, J
(202) 479-3019

Enclosures

COMPLAINT: 5:20-cv-1312 (GLS/ML)

In the United States District Court
of the Northern District of New York
Howard Griffith, et al.
Rebecca Sklaney, et al.
Plaintiff

Case No.: 5:20-cv-1312 (GLS/ML)

No Jury Trial

vs

New York, et al.
Respondent I

COMPLAINT FOR A CIVIL CASE
I. The Parties to This Complaint
PLAINTIFFS
Howard Griffith
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420
griffithhowardw@gmai I .com
Rebecca Sklaney
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420
sklaneyrebecca@gmail.com
DEFENDANTS
New York State Attorney General
300 South State Street, Suite 300
Syracuse, NY 13202
315-448-4800

1

COMPLAINT: 5:20-cv-1312 (GLS/ML)

DEFENDANTS (continued)
Jan Nastri
Lessor, Realtor
2501 James Street
Syracuse, NY 13206
II. Basis for Jurisdiction
Federal Question
52 U.S. Code 10303: Enforcement of Voting Rights
52 USC 10303(a)(2)
52 USC 10303(c)
52 USC 10303(d)
52 USC 10303(f)(2)
13 U.S. Code 141: Population and Other Census Information
13 U.S. Code 223: Proprietors Mishandling of Census
18 USC Section 231(a)(3) obstruction, impediment or interference with the
distribution of the census
United States Constitution
5th Amendment
9th Amendment
10th Amendment
14th Amendment

III. Statement of Claim

New York State should have been liable for protecting Plaintiff Griffith from
Penalties pursuant to NY Correction Law Section 168-t with regard to errors
involving the census and invalid identities of people identified as residing in his

2

COMPLAINT: 5:20-cv-1312 (GLS/ML)

household. (NY Correction Law Section 168-t, "Penalty": Any sex offender
required to register or to verify pursuant to the provisions of this article who
fails to register or verify in the manner and within the time periods provided
for in this article shall be guilty of a class E felony upon conviction for the first
offense, and upon conviction for a second or subsequent offense shall be guilty
of a class D felony... ) Plaintiff Griffith provided it needed to have been
considered for it to have been necessarily appropriate to take actions which may be
considered to have obstructed, impeded, or interfered with the distribution of the
census, pursuant to 18 USC Section 231(a)(3), as was provided for his sex offender
registry, as this was to maintain his safety. The primary cause for this action taken
to the state court: "Howard Griffith v Onondaga County, NY Civil Practice Law
and Rules Article 78, SU-2020-005851", was to obtain law [e]nforcement, with
regard to the perpetration provided by his landlord and perpetrators on the property
of his [shared] policy. Also, with regard to the requirement for "[e]nforcement",
[c]ode [e]nforcement was necessary. This included [e]nforcement to obtain
corrections for Plaintiff Griffith's address. The primary cause for the action taken
to the state court, pursuant to NY Civil Practice Law and Rules Article 78, was not
satisfied. Without New York satisfying this remedy, Plaintiff Griffith provided
cause for action taken to obtain [e]nforcement, which would include correction of
his address, to be obtained to have been provided as a secondary cause, via

3

COMPLAINT: 5:20-cv-1312 (GLS/ML)

injunction, after obtaining a declaration from the United States District Court of the
Northern District of New York to determine his voting rights were being violated
with regard to errors involving the census. Plaintiffs took this action while
providing a motion to obtain a temporary restraining order, as this would have been
necessary to protect their voting rights and personal safety. The Civil Practice Law
and Rules Article 78 petition was initially drafted and provided for Plaintiffs'
landlord, Jan Nastri, as an Arbitration Plaintiff Griffith had prepared as an Arbiter
providing he could take the action to the court if there were any errors with regard
to the policy for his home address, substantive to NY Real Property Law Section
235-b, to provide substance that Plaintiffs would not be subject to any conditions
which would be dangerous, hazardous, or detrimental to his or her life, health or
safety upon the liabilities of his landlord. (NY Real Property Law Section
235-b[1], "Warranty for Habitability": In every written or oral lease or rental
agreement for residential premises the landlord or lessor shall be deemed to
covenant and warrant that the premises so leased or rented and all areas used
in connection therewith in common with other tenants or residents are fit for
human habitation and for the uses reasonably intended by the parties and
that the occupants of such premises shall not be subjected to any conditions
which would be dangerous, hazardous or detrimental to their life, health or
safety...) (This was substantive to a fundamental remedy provided with regard to

4

COMPLAINT: 5:20-cv-1312 (GLS/ML)

a conviction prosecuted by the Onondaga County District Attorney, preserving
Plaintiff Griffith could contact the police instead of defending himself.) Errors with
regard to the census (13 USC Section 223: "Refusal, by owners, proprietors, etc.,
to assist census employees") developed the full cause precedent was established
that he could amend the draft to take the action to court, as he presented it with the
action, with the omission provided for his sex offender registry; the nature of the
proceeding fundamental to the "information [ ]" with regard to the Arbitration.
With the State's error with regard to the failure to correct this, it was character that
had been preserved in the nature of the cause which had enabled Plaintiffs to
develop a strategy to have it provided for a procedure in the federal court as
Plaintiffs were going to have to address it with regard to a federal issue involving
violation of voter rights. Plaintiffs were able to demonstrate this with mail-in
ballots being provided for the erroneous address. It was necessary to take action to
the United States District Court of the Northern District of New York to maintain
the remedy regarding Plaintiff Griffith's requirements to have properly handled the
Arbitration as an Arbiter for his own personal safety along with the safety of his
roommate, Plaintiff Rebecca Sklaney.

5

COMPLAINT: 5:20-cv-1312 (GLS/ML)

IV. Requested Relief

Declaration determining that the census without the citizenship question needs to
be considered as a "test or device" in determining the eligibility to vote to be
deemed to have been illegally used to obtain absentee, mail-in ballots during the
2020 general election to provide that absentee, mail-in ballots need to be
eliminated to eliminate this procedure for the illegal use of theses tests or devices.
With this proven, injunction could be provided for law enforcement, code
enforcement, to make corrections for their address along with corrections for other
violations of law substantive to their address to correct any irregularities Plaintiffs
had to proceed with upon what was initially demonstrated for the most
fundamental procedures just to maintain their safety as the injunction will have to
be a secondary cause consequential to the Declarations. Requests are made, also, to
obtain a Declaration that Jan Nastri can be fined up to $500 for refusing or
neglecting to furnish the names of the residents at 2903 James Street, Apt. 5,
Syracuse, NY 13206.

6

COMPLAINT: 5:20-cv-1312 (GLS/ML)

V. Certification and Closing

Under Federal Rules of Civil Procedure 11, by signing below, I certify to the best
of my knowledge, information, and belief that this complaint: (1) is not being
presented for an improper purpose, such as to harass, cause unnecessary delay, or
needlessly increase the cost of litigation; (2) is supported by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law; (3) the
factual contentions have evidentiary support or, if specifically so identified, will
likely have evidentiary support after a reasonable opportunity for further
investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.

For Parties Without an Attorney
I agree to provide the Clerk's Office with any changes to my address where
case--related papers may be served. I understand that my failure to keep a
current address on file with the Clerk's Office may result in the dismissal of
my case.
Date of signing: Marc 1,\ '61

Howard Griffith
7

COMPLAINT: 5:20-cv-1312 (GLS/ML)

Under Federal Rules of Civil Procedure 11, by signing below, I certify to the best
of my knowledge, information, and belief that this complaint: (1) is not being
presented for an improper purpose, such as to harass, cause unnecessary delay, or
needlessly increase the cost of litigation; (2) is supported by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law; (3) the
factual contentions have evidentiary support or, if specifically so identified, will
likely have evidentiary support after a reasonable opportunity for further
investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.

For Parties Without an Attorney
I agree to provide the Clerk's Office with any changes to my address where
case--related papers may be served. I understand that my failure to keep a
current address on file with the Clerk's Office may result in the dismissal of
my case.
Date of signing: AA (xrck * `)-0.1
)

PAO- L-tRebeCcaraney

8

In the United States District Court
For the Northern District of New York State
In the Matter of Application of
Howard Griffith & Rebecca Sklaney, et al.
Plaintiffs

Order to Show Cause and Temporary
Restraining Order in Concert with
42 U.S. Code Section 1983

-againstNew York State, et al.
Respondent.

5:20-cv-1312 (GLS/ML)

For a Judgment Pursuant
42 U.S. Code Section 1983
Upon the annexed affidavit of Plaintiffs, Howard Griffith and Rebecca Sklaney, with regard to
the matter proposed above, upon the exhibits attached thereto and the memorandum of law with
regard to this matter:
LET the Respondents of this matter, New York State and Jan Nastri, show cause before this
Court on the

day of

, 2021, at the time of

on that day, why

preliminary injunction should not issue pursuant Rule 65(a) of the Federal Rules of Civil
Procedure enjoining the Respondents, their successors in office, agents and employees and all
other persons acting in concert and participation with them, any injunction which prohibits the
parties' authorization to object that there is no good reason for this matter to be heard, upon the
grounds that recent changes in law and new evidence demonstrate cause to determine census
without the citizenship question may be deemed as a "test or device" to [d]etermine the eligibility
to vote (52 U.S.C. Section 10303) and if this is to have merit, why Declaration cannot be made to
determine these "tests or devices" have been illegally used to make that [d]etermination [voter
eligibility] with regard to obtaining absentee, mail-in votes and why if any determinations were
to be made to consider these remedies have merit, the Declaration would not provide a cause that
it would be necessary to suspend the use of absentee, mail-in ballots (52 U.S.C. Section 10303)

and furthermore why preliminary injunction should not issue pursuant Rule 65(a) of the Federal
Rules of Civil Procedure [ any injunction which prohibits the parties' authorization to object
that there is no good reason for this matter to be heard that Jan Nastri can be fined up to $500 for
refusing or willfully neglecting to furnish the names of the residents at 2903 James Street, Apt. 5,
Syracuse, NY 13206, (13 U.S.C. 223 ) and why a declaration cannot be made to determine that
Jan Nastri can be fined up to $500 for those reasons. Accordingly it is:

ORDERED that temporary restraining order be provided to maintain errors with regard to
Plaintiffs' address until it may be determined whether or not declarations may be made [ ] prior
to taking any actions for injunction to make corrections, and it is further

ORDERED that this Order to Show Cause and all other papers attached to this application be
served to the judicial representative of New York State and Jan Nastri by the

day of

, 2021.

Dated:

United States District Judge

In the United States District Court
of the Northern District of New York
MEMORANDUM
Motion for Temporary Restraining Order

Howard Griffith, et al.
Rebecca Sklaney, et al.
Plaintiff [ ]

Case No.: 5:20-cv-1312 (GLS/ML)

VS

New York, et al.
Respondent [ ]

With the rewritten complaint provided, dated

M(Ar C-\(\

8,

2021, in compliance with the

Order and Report Recommendation provided by Judge Miroslav Lovric on December 28,- 2020,
written by the [P]laintiffs presented in the above entitled proceeding and with regard to
substantive changes in law, ([1] Trump v New York, 592 U.S.

[2020]: December 18, 2020;

[2] Inauguration of the 46th Presidency of the United States: January 20, 2021; [3] conclusion of
judicial proceedings to determine the outcome of the general election for the 22nd
Congressional District: February 5, 2021) due process provides good cause for Plaintiffs to

provide this motion for temporary restraining order to maintain remedies for declaration to be
made why mail-in ballots need to be eliminated as it applies to 52 USC 10303, prior to obtaining
injunction to correct any irregularities:

52 USC 10303(b) Required factual determinations necessary to allow suspension of
compliance with tests and devices; publication in Federal Register
"On and after August 6, 1975, in addition to any State or political subdivision of a State
determined to be subject to subsection (a) pursuant to the previous two sentences, the provisions
of subsection (a) shall apply in any State or any political subdivision of a State which (i) the

1

Attorney General determines maintained on November I, 1972, any test or device, and with
respect to which (ii) the Director of the Census determines that less than 50 per centum of the
citizens of voting age were registered on November 1, 1972, or that less than 50 per centum of
such persons voted in the Presidential election of November 1972..."

MERIT PROVIDES, in 1972, the census without the citizenship question was deemed to have
been a "test or device" in determining the eligibility to vote and less than 50 per centum of such
persons voted in the Presidential election of November 1972. In September, 2020, Plaintiff,
Howard Griffith, demonstrated that a false address for a census without a citizenship question
was provided at his mailbox as he was concerned it may have altered his address necessary to be
provided for his sex offender registry. Without the necessary injunction being provided for a
court action to correct the address, via NY Civil Practice Law and Rules Article 78, (Howard
Griffith v Onondaga County, SU-2020-005851) or without the Onondaga County District
Attorney providing the information to the county to have the corrections made, out of gross
negligence or bad faith (see NY Correction Law Section 168-r[2], "Immunity from Liabilities"
[NY Correction Law Article 168: Sex Offender Registration Act (SORA)]) after Plaintiff Griffith
provided the information to the district attorney; Plaintiffs proceeded to take action to the United
States District Court of the Northern District of New York, to obtain a temporary restraining
order prior to the 2020 general election to maintain the omissions throughout the completion of
the election to provide the remedies to obtain a declaratory judgment providing New York State
had illegally engaged in the use of tests or devices. (Howard Griffith et al v New York, 42 U.S.
Code Section 1983, 5:20-cv-1312 [GLS/ML]) Plaintiff provided evidence that mail-in ballots
could be provided for this address. (52 USC 10303[a][2]: "To assist the court in determining

2

whether to issue a declaratory judgment under this subsection, the plaintiff shall present evidence
of minority participation, [non-citizens, with false addresses, as provided at Plaintiffs'
address, were able to obtain mail-in ballots] [i]ncluding evidence of the levels of minority
group registration and voting, [c]hanges in such levels over time, [see Trump v New York, 592
USC

(2020): December 18, 2020 1] and disparities between minority-group and

non-minority- group participation. [State Court actions proceeded to decide the election
results for the 22nd Congressional District 2]" [emphasis added])
Plaintiffs' address is located in the 24th Congressional District. Immediately, following the
election, John Katko of the 24th Congressional District took action to sue the Onondaga County
Board of Elections. "The media" provided how state legislature, Rachael May, also sued the
Onondaga County Board of Elections. Syracuse.com, November 5, 2020: "An unusual
maneuver, the Democratic and Republican lawyers are working on a joint deal that they hope
would provide both sides unprecedented access to the absentee counts. [mail-in ballots
considered to have been absentee ballots] [emphasis added]" With regard to the "unusual
maneuver", Plaintiffs, John Katko and Rachel May, were able to demonstrate that actions were
' Pennsylvania, Michigan, Wisconsin, Nevada, North Carolina, and Phoenix joined in with New
York.
2 Syracuse.com, January 13, 2021: "The Oneida County Board of Elections failed to register 2,418
residents who applied on time, rendering them unable to vote on Election Day... Comeskey, a clerk
at the elections board, testified Friday afternoon that the office was overwhelmed with applications
and had to deal with Covid-19, a glut of absentee ballots and changes in state law... 2,418
applications were among about 3,000 the board received from the state Department of Motor
Vehicles. They processed 640 applications by Election Day, but the rest were left undone... The
voters would have shown up at the polls and been told they weren't registered. Poll workers would
then have offered them the opportunity to speak to a judge or fill out an affidavit ballot... It's not
clear how many voters filed affidavit ballots... The state Department of Motor Vehicles allows
people to register to vote when they do other business at the agency*... Tenney's attorneys are
arguing that the votes should not count because it is impossible to verify the identity of a voter
without comparing their ballots to a registration record that doesn't exist. So a poll worker who
met one of the 2,418 voters would not have been able to verify their signature and determine they
were eligible."
dmv.ny.gov, February 9, 2021: "You do not need to be a US Citizen to get a New York
driver license, permit or non-driver ID card"
3

made to review votes to ascertain that any votes with any invalid characteristics had been
corrected. (see 52 U.S. Code 10303[d][1]) Nevertheless, since Plaintiffs were able to raise their
claim prior to the 2020 general election that the evidence provided for errors regarding the
census were provided for their address, while demonstrating errors that multiple households were
provided as residence for their address, and with the evidence that mail-in ballots were able to
have been obtained for those households at their address; substance would be able to support
declaration that the engagement of the illegal use of tests or devices were consequential.' With
the United States District Court of the Northern District of New York "Dismissing" Plaintiffs,
Howard Griffith's, Habeas Corpus petition "Without Prejudice" on December 28, 2020, prior to
the completion of the 2020 [elect]ion (Joe Biden: President "Elect"), merit provides this satisfied
the temporary restraining order, as this maintained the irregularities for Plaintiff Griffith's sex
offender registry, necessary to satisfy the procedure that Plaintiff [ ] could maintain the
provision for the false household[s] (2903 James Street, Apt. 5, Syracuse, NY 13206; Laura
Nassar: 2903 James Street, Apt. 1R, Syracuse, NY 13206) provided for their address without
Plaintiff Griffith being subject to consequences pursuant to NY Correction Law Section 168-t,
"Penalties" or 18 USC Section 231(a)(3): "Obstructing, impeding, or interfering with a federally
protected [function] (the [function]: the distribution of the census [13 USC 141])". This would
demonstrate the continuing effect of how the mail-in ballots could be obtained for a false
household after the 2020 general election (with the provision of new evidence [see attachment]')
The Iclensus without the citizenship question ("test or device") was being falsely provided as a
false address to obtain mail-in ballots. This provided there to be an illegal use of a "test or device"
to determine the eligibility to obtain a mail-in ballot. This violated Plaintiffs' rights to vote being it
was falsely provided for their address.
@ https://www.ny.gov/early-voting-and-absentee-voting-mail-or-dropbox SEARCH:
https://www.dfs.nv.gov/insurance/ogco2000/rg005303.htm (Department of Financial Services)
The Transaction of Private Passenger Automobile and Homeowner's Insurance Business on the
Internet.
Questions Presented:
3

4

to interfere with Plaintiffs' rights to votes and it would be demonstrated with the reasonable
probability of the recurrence in the future with regard to actions by Congress and Joe Biden to
make laws for the permanent use of mail-in votes. (52 U.S. Code Section 10303[d][2][3])6

With Regard to Habeas Corpus, Plaintiff Griffith demonstrates that his sex offender registry is
invalid in two ccompletely different manners in two completely different matters: "Howard
Griffith et al v New York, 5:20-cv-1312 (GLS/ML)" and "People v Griffith, 166 AD3d 1518
(4th Dept 2018)" Plaintiff Griffith demonstrates how the Onondaga County District Attorney is
liable for both errors. Plaintiff Griffith also demonstrates how final orders with regard to either
matter may provide remedies substantive to the other.
Plaintiff Griffith attempted to take action for habeas corpus with this action because it has been
interpreted he was a prisoner. Also, pursuant to 28 U.S.C. Section 1915(h), because Plaintiff
Griffith's right to the law library was violated,' (see Bounds v Smith, 430 U.S. 817 [1977] and

May private passenger automobile insurance coverage and homeowner's insurance
coverage be bound on the Internet by an authorized New York insurer following the
completion on the Internet of an electronic application that has been electronically signed by
the applicant?
Yes, private passenger automobile insurance coverage and homeowner's insurance coverage
can be bound on the Internet by an authorized New York insurer following the completion
on the Internet of an electronic application that has been electronically signed by the applicant.
[emphasis added]
'Injunction would need to be provided, after a declaration would be made, for [c]ode enforcement,
[1]aw enforcement, on the property of the shared policy with Plaintiffs' landlord to correct the
irregularities to once again provide there to be no manipulation to interfere with their votes and to
correct additional errors and violations in law.
6 With the irregularity being maintained for Plaintiffs' address, via temporary restraining order,
after no final judgment had been made prior to the completion of the 2020 general election with
regard to the illegal use of the filllegal tests or devices [ ] (52 U.S. Code Section 10303[a][1][B]),
substance would be provided that the [i]llegal "test or device" would still be able to be used to
provide a determination to complete the process to illegally obtain a [ mail-in ballot as declaration
would need to be provided that mail-in ballots would need to be eliminated, the process considering
that illegal uses of the [ "tests or devices" to determine the eligibility to vote would be eliminated.
'New York Executive Orders pursuant to Section 29-a of article 2-b of the Executive Law: Orders
202.67 and 202.8, with regard to COVID-19, affected court proceedings, closing courthouses and
law libraries
5

Lewis v Casey, 518 U.S. 343 [1996]) he believed good cause may have been provided to have
taken the habeas corpus via an erroneous process. Plaintiff Griffith objects the interpretation this
Court provides for the Memorandum and Order provided with "People of the State of New York
v Howard Griffith, 166 AD3d 1518 (4th Dept 2018)" because it is clear that this Court took no
time to review the "court reporters" posted in the memorandum:

People v Griffith, 166 AD3d 1518 (4th Dept 2018)
People v Griffith, 166 AD3d at 1519 provides that the Supreme Court of the State of New York,
Appellate Division/Fourth Department held that Defendant (Plaintiff Griffith) had properly taken
his appeal pursuant to CPL 450.10(1) "as it applies" to Correction Law Section 168-n, agreeing
with Defendant that "he was denied effective assistance of counsel," providing the cause to
"reverse the order, reinstate the petition, and remit the matter to County Court for a new hearing
on the petition." It was concluded "that defense counsel 'essentially [ ] became a witness
against [defendant] and took a position adverse to him,' which denied defendant effective
assistance of counsel (People v Caccavale, 305 A.D.2d 695, 695 [2d Dept 2003]: 'Prior to
sentencing, the defendant moved, pro se, to withdraw his plea of guilty on the ground, inter alia,
that his defense counsel told him that he was going "to blow trial" ... In response to the
defendant's application for permission to withdraw his plea of guilty, the defense counsel
specifically denied this allegation and stressed what he had done on the defendant's behalf.

Under these circumstances, the defendant's right to counsel was adversely affected when his
attorney, essentially, became a witness against him and took a position adverse to him. [The
Supreme Court should have first assigned new counsel to the defendant before deciding the
defendant's motion] ... [the matter is remitted to the Supreme Court, Westchester County, to hear

6

and report on the defendant's motion to withdraw his plea of guilty] and the appeal is held in
abeyance in the interim.' [emphasis added])" 8 "[It is well settled that a SORA proceeding may
not be used to challenge the underlying conviction]" satisfied the cause that the Onondaga
County Court did not [i]nitially "err in refusing to allow him to challenge his plea or other
aspects of his underlying conviction." (id. at 1520 [emphasis added]) "among other things,"
(id. at 1519 [emphasis added]) a direct appeal (CPL 450.10[1]) may be used to challenge the
plea or other aspects of the underlying conviction. People v Griffith, id. at 1519: (see generally
People v Charles, 162 A.D.3d 125, 126,137-140 [2d Dept 2018], id. at 138: "Appellate Division
Departments have all decided on the merits," id. at 125: "It was of concern that defendant had
never completed a sex offender treatment program and had refused to accept responsibility for
the offense." [emphasis added]) 9

8

People v Griffith, id. at 1519 (WESTLAW)
HEADNOTES
Crimes
Right to Counsel
Effective Representation

People v Caccavale, id. at 695 (WESTLAW)

HEADNOTES
CRIMES
RIGHT TO COUNSEL
9

People v Griffith, id. at 1519 (WESTLAW)

HEADNOTES
Crimes
Sex Offenders
Sex Offender Registration Act--Downward Modification
People v Charles, id. at 125 (WESTLAW)

HEADNOTES
Crimes
Sex Offenders
Sex Offender Registration Act--Downward Modification Not Warranted
7

The procedure with regard to the order for "People v Griffith [ ]" is not final. Plaintiff Griffith
demonstrates how his sex offender registry is the most fundamental remedy for any court actions
to have been taken, substantive to the arbitration developed with his landlord. The most
fundamental remedy of Plaintiff Griffith's sex offender registry is his conviction. With Plaintiff
Griffith's sex offender registry becoming moot with regard to a dismissal of his conviction, any
declaration for this action would not be able to live in essence for himself. Nevertheless,
remedies would still be able to be maintained to most fundamentally provide essence for Plaintiff
Rebecca Sklaney's declaration. However, in order to obtain that remedy, Plaintiff Griffith's
conviction would not be able to be overturned before declaration and injunction were to be
provided for the cause of action in this matter. With Habeas Corpus being dismissed without
prejudice, this satisfies the merits for Plaintiffs' temporary restraining order to maintain errors
with regard to Plaintiff Griffith's sex offender registry, most fundamentally for safety purposes
and most substantively to obtain declaration and injunction.

8

WHEREFORE, Plaintiffs, Howard Griffith and Rebecca Sklaney, respectfully request this
Court
ORDER temporary restraining order be provided to maintain errors with regard to the address
provided for Plaintiff Griffith's sex offender registration until it may be decided if declarations
may be made for primary causes before injunctions can be decided to be made for law
enforcement, code enforcement, as Plaintiffs had initially demonstrated, and it is further
requested this Court
GRANT such other relief that may be deemed as just and proper.

N-0-w-04
Howard' Griffith

Rebecca Sklaney

)-1
Dated: March SP
2903 James Street, # I R
Syracuse, NY 13206
(315)741-7420

Dated: MoLrCk
2903 James Street, # I R
Syracuse, NY 13206
(315)741-7420

9

STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:
Plaintiff, Howard Griffith, affirms under the penalty of perjury that the statement provided with
this motion is true to the best of his knowledge:

Howar'Griffith
worn to before me this SI day of

Po-rch

, 2021

/4'01 DL • itgt

.

0141 30

MELISSA SCHWARTZ
Notary Public - State of New York
NO. 04SC6162309
Qualified in
Onondaga County
My. Commission
Expires 3 Z_2

Plaintiff, Rebecca Sklaney, affirms under the penalty of perjury that the statement provided with
this motion is true to the best of her knowledge:

Rebecca Sk1;:e?—
rn to before me this

day of

MO'r

, 2021

,
N

L S1or3 0 56 te367

MELISSA SCHWARTZ
Notary Public - State of New York
NO. 04SC6162309
Qualified in Onondaga Coun y
My Commission Expires 3-- a-

10

(see pages: 3, 4-5; refer to footnotes 2 & 4)
In the United States District Court
of the Northern District of New York
Howard Griffith, et al.
Rebecca Sklaney, et al.
Plaintiff [
VS

Motion for Temporary Restraining Order
"Supplemental Memorandum"

Case No.: 5:20-cv-1312 (GLS/ML)

New York, et al.
Respondent [ J
Remedies exist to obtain invalid, electronic signature[s] for CURRENT RESIDENT at 2903
James St, Apt 5, Syracuse, NY 13206-2127 in 2021.
STATEMENT OF FACTS
"RetailMeNot Everyday" distributes a postcard to a CURRENT RESIDENT at 2903 James St,
Apt 5, Syracuse, NY 13206-2127, to sign up for a membership on crunchdewitt.com.
"RetailMeNot Everyday" distributes the postcard from 235 Great Pond Dr., Windsor, CT 06095.
"RetailMeNot Everyday" distributes the postcard in conformance with "© 2021 Crunch IP
Holdings, LLC".
The postcard states: "Offers valid for new members at specified location only and expire
02/28/2020."
CONCLUSION
Merit provides that if the offer is only valid to be signed up with until 02/28/2020 in
conformance with "© 2021 Crunch IP Holdings, LLC", remedies exist to obtain invalid,
electronic signature[s] for CURRENT RESIDENT, at 2903 James St, Apt 5, Syracuse, NY
13206-2127 in 2021.
Howard Griffith

14 a1

Dated: Akokrek
2903 James Street. # 1R
Syracuse, NY 13206
(315)741-7420

Rebecca Sklaney
Dated: MckrcL 71 )-nt
2903 James Street, # 1R
Syracuse, NY 13206
(315)741-7420

Attachments: Postcard for Membership at crunchdewitt.com
Coupons for [ ] RESIDENT, VALUED READER, at 2903 James St, Apt 5, [ ]

ReraikfieWol"
Everyday-

ECR
PRSRT STD
US Postage
PAID
V

1..111,10'0M -1111-111111,11.1.11-11111.1.111111,111.1."

CURRENT RESIDENT
2903 JANfES ST
APT 5

SO FRESH & SO CLEAN

We have implemented new cleaning standards that are aligned with CDC &
state guidelines to help ensure a safe environment for our members & team.

SYRACUSE, NY 13206-2127
PMCFDEWTO1 15
00265 1S246

5

BRING THIS IN TO CLAIM YOUR FREE MONTH!
3179 ERIE BLVD E • SYRACUSE, NY • 315.449.0626 • CRUNCHDEWITT.COM
®CrunchDewitt E @CrunchDewitt
Offers we'd for new members at speciSed !oration ony and ezdre 2/2&2020. Adnonal fees and restidons may apdy. See dub for dale's.
0 2021 Crunch IP 1-1o:dings, LIC

--•
CT

USPS requires this address label to accompany its postage paid mail. Should
you receive this card without accompanying mail, notify your local postmaster.

17
.31 5) 802-2470
piesguysicom

&WSW/41dr"
E. SYRACUSE
3106 James Street
O

Mon.-Thurs.11am-10pm
Fri.11am-11pm
Sat.12pm-11pm
Sun.12pm-9pm

0

rcZ

to
(0
cv
7..
.
-- co
- .17
=E: Le
c)
•
▪-- 0

www.GoMa ilShark.com

_

©2021MailShark®

Check out our
6 other locations:
North Syracuse
Fulton
Oswego
Fairmount
Liverpool
Onondaga Blvd.

CD

:=
▪_
===
=—
—=—

c)
Lu
.
i
:
ai ;
0

42 ,m
—== ; r..._
cn
i CD
==—
i '—
_

; -:.) I—
=_ t, ,- Z
= ;
J. cg LU

rCNI

Z1
Q5
CD
C4
00
,--

F- >_

C4 Z
OD uj

LLI cl)
D
<C c)

r
,- C) 111 -',
=_
co 1— c., cc
_ co c,

80 UJ 0_ 8 )-

NZ
Nuj

f6
o 12
>,
cr)

HAVE YOU

SEE

Valued Reader

Help find missing kids
in your area with the
HAVE YOU SEEN ME? app

PRESORTED
STANDARD
U.S. POSTAGE PAID

0

1E47

Download the app
0 Scan red logo

CLIPPER
MAGAZINE

. +44 *÷****4* +.4,÷4**EcRigss44 C-013

M

00163-02-21A1

valassis is committed to supporting the Rational Center for Missing & Exploited Children,
Call the toll-free hotline 24/7:
1-800-THE-LOST®. (1.800.843.56781,,.,.:

VALUED READER

P003
0066
0030

2903 JAMES ST APT 5
SYRACUSE, we 13206-2127

For advertising Info:

-814-395-8059
IH1Em
:'.6119/0e9t., MAGAZINE Sao!
IVIOUNROLLED, rFnO,A1Di554

OUR BEST DEAL IS ONLINE

Worth Of Casual

Purchase at:

300 IMMO BOTTUM BEERS
50 BIERS OH TAP &
,

FaRLD

.

HiPER

E3A1 & KITCHEN .

DestinyUSAIVIall3MFloorCanyonArea
Svracuse•315-422-2-M

WORLD OF BEER • 315-422-2330
With this coupon. One coupon per table, per visit. Not valid with any other otters
or discounts. Please present coupon at time of ordering. Expires 3/31/21.
Go to LocalFlavor.com for more coupons.

any check

Mon-Thur 3pm-lOpm • Fri-Sat 11:30am-110pm • Sun 11:30am-lOpm

Download our free app for VH.1-6 rewards
W:M.00FEEEF

WORLD OF BEER • 315-422-2330
With this coupon. One coupon per table, per visit. riot valid with any other offers
or discounts. Please present coupon at time of ordering. Expires 3/31/21.
Go to LocalFlavoccom for more coupons.

EVERYDAY SPECIALS
(CLIPLESS COUPONS) do not cut just mention!

DOUBLE PIZZA SPECIALS
2 Small Cheese Pizzas

16.99

Add Topping

$1.00

2 Medium Cheese Pizzas

19.99

Add Topping

$1.50

2 Large Cheese Pizzas

22.99

Add Topping

$2.00

2 Extra Large Cheese Pizzas

24.99

$2.50

2 Party (Sheet) Cheese Pizzas

33.99

Add Topping
Add Topping

$3.00

COUPON #6

COUPON #7

COUPON #8

Small Cheese Pizza
& 10 Chicken Wings

Medium Cheese Pizza
& 10 Chicken Wings

Large Cheese Pizza
& 10 Chicken Wings

$17.99.

$19.99..

Must mention coupon when ordering. Carnet be combined
wth any otter offers. Toppings exh. Limited tines offer.

$20.99..

Must mention coupon when ordering. Carat be =tired
with ary oter offers. Toppings extra. Linled time offer.

Must mention coupon when ordering. Cannot be corrtired
with any other offers. Toppirgs extra. Lipted time offer.

COUPON #9 .
Large Cheese Pizza,
20 Chicken Wings
& Large Garden Salad

$33.99..
Must mention coupon when ordering. Cannot be combed
wth amp cdier offers. Toppings eats. Limited time offer.

COUPON #10

COUPON #11

2 Large Cheese
Pizzas &
20 Chicken Wings

2 Large Cheese Pizzas,
30 Chicken Wings
& 2 Liter Soda

$39.99..

$49.99..

Must mention coupon when ordering. Cannot be corrtir
wh any other offers. Toppings extra. Limited'he offer.

Must mention coupon when ordering. Carrot be corrtined
AN any °ter offers. Toppings extra. Limited time otter

COUPON #12

COUPON #13

COUPON #14

Party Size Cheese Pizza,
20 Chicken Wings
& 2 Liter Soda

2 Party Size Cheese
Pizzas, 40 Chicken
Wings & 2 Liter Soda

Buy Any 2
Large, X-Large or Party
Gourmet Pizzas & Get

$36.99..

$69.99..

Must mention coupon when ordering. Carol be ccatbred
with any other offers. Toppings extra. Limited lime offer.

$5.00 OFF

Must mention coupon when ordering. Cannot be combined
wh any otter offers. Toppings extra. Limited tine offer.

Must mention coupon when ordering. Cannot be combined
any other offers. Toppings extra. Limited time offer.

COUPON #15

COUPON #16

Large Cheese Pizza
& 20 Chicken Wings

$4.00 OFF

$28.99..
Must mention coupon when ordering. Cannot be combated
will any other offers. Toppings extra. Mated time offer.

welt

On Any 2 Dinner
Entrees
Must mention coupon when ordering. Carrot be combined
wh any otter offers. Toppings extra. Limited the offer.
41V*
mom/
•••
•••••••
••••=
••••••

LUNCH SPECIALS
Served everyday from 11a rn-1.1:30prn

Buy any 2 slices of pizza & get a can of soda
free
Buy any wrap with fries & can of soda
9.99
5 Pcs chicken tenders & fries
8.99
Buy any foot long sub with fries & get 20 oz soda free
2 Slices of cheese pizza & 10 chicken wings
12.99
10 Chicken wings & order of fries
11.99
Small cheese pizza & small garden salad
11.99
2 Slices of cheese pizza & order of fries
6.99
All prices are subject to change without notice.
Prices do not include sales tax.
Consumer Advisory:
Thoroughly cooking meats, poultry, seafood, shellfish or eggs reduce the risk of foodborne illness. Before placing your order, please inform your server if a person in your
party has a food allergy.
vt,y
' Queen Graphics & Point-orbs 1-203-839-5195 11/20

••••••
•••
••••••••••
1111+
••••

••••=0,
••••••=.

01,110.•
••••••••••
••••••••=.
••••••
••••••
••••••••••

••••••
••••
e••••••
•••=10
••••••••••
••••••
•••••=.
•••••W•
••••••••
•••

